BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Kathleen Keller
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
April H. Pullium
Joshua A. Rosenthal
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Deva A. Kyle
Tzvi Mackson*
Of Counsel

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

——————

Robert M. Weinberg
Julia Penny Clark
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel

April 19, 2021

*Licensed in New York Only

By Electronic Filing Only
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543-0001
Re: Arthur Diamond et al. v. Pennsylvania State Education
Association et al. and Janine Wenzig et al. v. Service Employees
International Union Local 668, No. 20-1383
Dear Mr. Harris:
I write pursuant to Supreme Court Rule 30.4, as counsel for Respondents
Pennsylvania State Education Association, National Education Association, and
Chestnut Ridge Education Association in the above-captioned matter, to request a
seven-day extension of time for all respondents to the pending Petition for
Certiorari to file Briefs in Opposition. The Petition was docketed on April 2, 2021,
and Briefs in Opposition are currently due on May 3, 2021. The requested extension
of time would extend the due date for all respondents to May 10, 2021. The
extension is necessitated both by the press of other business for counsel for
respondents and by the additional difficulties of preparing briefs while working
from home, due to the COVID-19 crisis.
I have consulted with Brian K. Kelsey, counsel for the Wenzig petitioners,
and Jonathan F. Mitchell, counsel for the Diamond petitioners, who do not oppose
the requested seven-day extension.

Hon. Scott S. Harris, Clerk
April 19, 2021
Page 2
Thank you for your consideration of this matter.
Sincerely,
/s/ Jacob Karabell
Counsel for Diamond Respondents Pennsylvania State
Education Association, National Education Association,
and Chestnut Ridge Education Association
CC:

P. Casey Pitts (by e-mail) (counsel for Wenzig Respondent SEIU Local 668)
J. Bart DeLone (by e-mail) (counsel for Diamond Respondents Josh Shapiro,
James M. Darby, Albert Mezzaroba, and Robert H. Shoop, Jr.)
Brian K. Kelsey (by e-mail) (counsel for Wenzig Petitioners)
Jonathan F. Mitchell (by e-mail) (counsel for Diamond Petitioners)

